        U.S. Department of Labor
        Office of Inspector General
              Office of Audit




                 Audit of
Indianapolis Private Industry Council
    Welfare-to-Work Competitive Grant
       Grant No. Y-6815-8-00-81-60
            Interim Audit Period
  July 1, 1998 through December 31, 2000




                            Audit Report No. 05-01-004-03-386
                            Date Issued: September 24, 2001
Indianapolis PIC Welfare-to-Work Competitive Grant



                                      Table of Contents


                                                           Page

Acronyms                                                     ii

Executive Summary                                           iii

Background                                                   1

Objective, Scope and Methodology                             3

Findings and Recommendations                                 4
       1. Participant Eligibility                            4
       2. Misclassified Participant Costs                    6
       3. Misallocated Expenditures                          7
       4. Unsupported Claimed Cost                           9
       5. Indirect Costs Overstated                         10

Exhibit A - Cumulative Quarterly Financial Status Report    13

Appendix A - Grantee Response                               14




DOL-OIG Report No. 05-01-004-03-386                          i
Indianapolis PIC Welfare-to-Work Competitive Grant



                                           Acronyms


CFR             Code of Federal Regulations
DOL             U.S. Department of Labor
ETA             Employment and Training Administration
OMB             Office of Management and Budget
IPIC            Indianapolis Private Industry Council
QFSR            Quarterly Financial Status Report
TANF            Temporary Assistance for Needy Families
WtW             Welfare-to-Work




DOL-OIG Report No. 05-01-004-03-386                       ii
Indianapolis PIC Welfare-to-Work Competitive Grant



                                     Executive Summary


The U.S. Department of Labor, Office of Inspector General, has completed an interim
financial and compliance audit of the $5,000,000 Welfare-to-Work (WtW) Competitive
Grant awarded to the Indianapolis Private Industry Council (IPIC). The grant’s original
period of performance was July 1, 1998 through June 30, 2001. On July 16, 2001, the grant
was extended until March 31, 2003. Our interim audit period was from July 1, 1998 through
December 31, 2000. As of December 31, 2000, IPIC claimed $2,081,320 of expenditures in
support of 405 WtW participants served. The cumulative Quarterly Financial Status Report
(QFSR) is attached as Exhibit A.

The objective of this audit was to review the allowability of claimed cost and eligibility of
WtW participants. The testing was not designed to express an opinion on the QFSR.

We identified five findings:

        C       During eligibility testing, we found one ineligible participant and one
                participant classified as a 70 percent participant who should have been
                classified as a 30 percent participant. The ineligible participant resulted in
                questioned costs of $5,374 and the misclassified participant resulted in
                improper classification of $3,858.

        C       In reviewing a claim submitted by one of IPIC’s contractors, we noted that
                WtW costs for two participants, properly classified by IPIC as Long-term
                Welfare Dependent (30%), were inaccurately assigned to Hard-to-Employ
                (70%) expenditure accounts. In total, $3,687 were misclassified.

        C       IPIC does not allocate WtW administrative and program expenditures to the
                70 percent and 30 percent categories according to its cost allocation plan. As
                a result, the expenditures for Required Beneficiaries (70% Minimum), per
                line 5a of the Quarterly Financial Status Reports, and Other Eligibles (30%
                Maximum), per line 5b, are misstated.

        C       One contractor’s invoice did not have supporting documentation. This
                resulted in $1,331 of unsupported expenditures.

        C       IPIC used the wrong indirect cost rates to calculate indirect costs. Indirect
                costs were overstated by $44,732.



DOL-OIG Report No. 05-01-004-03-386                                                              iii
Indianapolis PIC Welfare-to-Work Competitive Grant


We recommend that the Assistant Secretary for Employment and Training direct IPIC to:

        C       remove the ineligible participant from its participant database and disallow the
                costs of $5,374;

        C       adjust the participant database to reflect the participants’ Other Eligible
                (30%) status and transfer $3,858 from the 70 percent to the 30 percent
                expenditure accounts;

        C       transfer misclassified participant costs of $3,687 from the 70 percent to the 30
                percent expenditure accounts;

        C       follow its cost allocation plan to allocate expenditures to the 70 percent and
                30 percent categories;

        C       obtain the necessary documentation to support a contractor’s claim or
                disallow the $1,331; and

        C       adjust its overstated indirect costs by $44,732 to reflect the appropriate rates.

IPIC officials generally concurred with our findings but took exception to our
recommendations concerning their cost allocation and indirect cost plans. Our findings and
recommendations remain unchanged from our draft report. A complete copy of the response
is attached as Appendix A.




DOL-OIG Report No. 05-01-004-03-386                                                              iv
Indianapolis PIC Welfare-to-Work Competitive Grant



                                          Background

                        The Personal Responsibility and Work Opportunity Reconciliation
   Objective of         Act of 1996 established the Temporary Assistance for Needy
  Welfare-to-Work       Families (TANF) program. The TANF provisions substantially
                        changed the nation’s welfare system from one in which cash
                        assistance was provided on an entitlement basis to a system in which
the primary focus is on moving welfare recipients to work and promoting family
responsibility, accountability and self-sufficiency. This is known as the “work first”
objective.

Recognizing that individuals in TANF may need additional assistance to obtain lasting jobs
and become self-sufficient, the Balanced Budget Act of 1997 amended certain TANF
provisions and provided for Welfare-to-Work (WtW) grants to states and local communities
for transitional employment assistance which moves hard-to-employ TANF welfare recipients
into unsubsidized jobs and economic self-sufficiency.

The Welfare-to-Work and Child Support Amendments of 1999 allow grantees to more
effectively serve both long-term welfare recipients and noncustodial parents of low-income
children.

Of the $3 billion budgeted for the WtW program in Fiscal Years 1998 and 1999, $711.5
million was designated for award through competitive grants to local communities.

                        On June 30, 1998, the IPIC received a 3-year WtW competitive grant
 Indianapolis PIC’s     in the amount of $5,000,000. The period of performance was July 1,
 Competitive Grant      1998 through June 30, 2001. On July 16, 2001, the grant was
                        extended until March 31, 2003, with no additional funding. Grant
modifications also amended the number of participants from 750 to 625 and the indirect cost
rate ceiling from 11 percent to 7 percent.

The purpose stated in the grant application was to place 750 welfare recipients in jobs in
eight urban neighborhoods facing serious economic and social challenges.

                        In addition to the provisions of the Balanced Budget Act of 1997, the
  Principal Criteria    Department of Labor (DOL) issued regulations found in
                        20 CFR 645. Interim regulations were issued November 18, 1997.
                        Final Regulations were issued on January 11, 2001, and became
effective April 13, 2001. Also, on April 13, 2001, a new Interim Final Rule was effective,
implementing the Welfare-to-Work and Child Support Amendments of 1999. This resulted


DOL-OIG Report No. 05-01-004-03-386                                                          1
Indianapolis PIC Welfare-to-Work Competitive Grant


in changes in the participant eligibility requirements, effective January 1, 2000, for
competitive grants.

As a nonprofit entity, IPIC is required to follow general administrative requirements
contained in Office of Management and Budget (OMB) Circular A-110, which is codified in
DOL regulations in 29 CFR 95, and OMB Circular A-122 requirements for determining the
allowability of costs.

                       In March 1999, we issued a report on the results of a postaward
 Postaward Survey      survey of 35 first-round competitive grantees. IPIC was included in
                       that review. During this audit we followed up on the findings
                       identified in the postaward survey. In general, based on our work,
those findings have been adequately addressed.

                                             –––––

This report is intended for the information of the U.S. Department of Labor, Employment
and Training Administration (ETA) and IPIC. However, upon issuance this report becomes
a matter of public record and its distribution is unlimited.




DOL-OIG Report No. 05-01-004-03-386                                                       2
Indianapolis PIC Welfare-to-Work Competitive Grant



                           Objective, Scope and Methodology

                         The objective of this audit was to review the allowability of claimed
      Objective          cost and eligibility of WtW participants.

                         Our interim audit included program activities that occurred from
  Audit Scope and        July 1, 1998 through December 31, 2000.
   Methodology
                        The extent of our audit testing was based on a vulnerability
                        assessment of participant eligibility, financial management and
selected categories of cost. We did not audit performance measurements.

We audited claimed expenditures totaling $2,081,320 reported on the QFSR of
December 31, 2000 (Exhibit A). Using judgmental sampling techniques, we tested a limited
number of transactions, including staff salaries and fringe benefits, other administrative
expenditures, program costs and contractor costs. We reviewed indirect charges based on
the approved indirect cost plan and the grant indirect cost ceiling. We examined allocations
to the 70 percent and 30 percent cost categories. We also reviewed the grantee’s
procurement of contractors.

To test eligibility of the participants served, we created two universes of participants – those
enrolled before January 1, 2000, and those enrolled January 1, 2000, and thereafter. Using
judgmental sampling techniques, we selected 30 participants from each universe. As part of
our eligibility determination, we reviewed the Eligibility Verification Forms provided by
Indiana Family and Social Service Administration to determine whether each participant met
TANF and/or Aid to Families with Dependent Children cash assistance requirements as of the
date of WtW eligibility determination.

To accomplish the audit objectives, we interviewed grantee officials, and obtained and
reviewed grantee policies and procedures, participant files, accounting records, and source
documentation, such as contracts, invoices and payrolls to support claimed costs.

The results of our audit are listed in the Findings and Recommendations section, beginning
on page 4.

We conducted our audit in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. We conducted fieldwork from April 16, 2001 to
June 15, 2001, at the IPIC’s office.




DOL-OIG Report No. 05-01-004-03-386                                                              3
Indianapolis PIC Welfare-to-Work Competitive Grant



                             Findings and Recommendations


                                    1. Participant Eligibility

For our testing of eligibility, we judgmentally selected from a universe of 4281 participants.
There were 215 participants enrolled in WtW before January 1, 2000, and 213 participants
enrolled January 1, 2000 through December 31, 2000. We selected a sample of 30
participants from each group. We tested 70 percent and 30 percent eligibility determinations
made at enrollment. The eligibility testing revealed one ineligible participant and one
misclassified participant.

A. Ineligible Participant

                              We found one ineligible participant. The sampled participant,
  Ineligible participant
                              enrolled April 2000, was determined eligible by IPIC for
  resulted in questioned
                              assistance as a 70 percent noncustodial parent. After reviewing
  costs of $5,374
                              the WtW Eligibility Verification Form, we found the participant
                              ineligible because:

        1)      the minor child and custodial parent were not eligible for, or receiving, TANF
                for at least 30 months; and
        2)      the minor child was not eligible for, or receiving, Food Stamps, Supplemental
                Security Income, Medicaid or the Children’s Health Insurance.

Nevertheless, the participant was determined eligible and received WtW assistance from The
Indiana Plan for Equal Employment, Inc., one of IPIC’s contractors.

20 CFR Part 645.212(c) states in part:

        (S)he is a noncustodial parent of a minor child if:

        . . . (2) At least one of the following applies:

                (i)     The minor child, or custodial parent of the minor child, meets the
                        long-term recipient of TANF requirements . . .


   1
    IPIC’s December 31, 2000 QFSR reported 405 participants. IPIC stated that some
contractors were late in reporting 23 participants to IPIC as of December 31, 2000.


DOL-OIG Report No. 05-01-004-03-386                                                             4
Indianapolis PIC Welfare-to-Work Competitive Grant


                (ii)    The minor child is receiving or is eligible for TANF benefits and
                        services;
                (iii)   The minor child received TANF benefits and services during the
                        preceding year; or
                (iv)    The minor child is receiving or eligible for assistance under the Food
                        Stamp program, the Supplemental Security Income program,
                        Medicaid, or the Children’s Health Insurance Program. . . .

We believe this was an error that went undetected during IPIC’s review process. This error
resulted in $5,374 being spent on an ineligible Primary Eligible (70%) participant.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training:

        1)      direct IPIC to remove this participant from its participant database; and
        2)      disallow the costs of $5,374.

Grantee Response:

IPIC officials agree with this determination and will replace the one ineligible client with an
eligible client from the same contracted client service provider.

Auditor’s Conclusion:

We concur with this planned action and resolve this finding. However, our recommendation
cannot be closed until the ETA verifies that IPIC has fully implemented the required
corrective actions.

B. Misclassified Participant

Our eligibility testing also disclosed one participant who was not properly classified. The
participant should have been classified as an Other Eligible (30%) participant but was
entered into IPIC’s WtW participant database as a Primary Eligible (70%) participant.

We noted that this participant’s file contained the correct information even though the
participant was misclassified in the database. IPIC stated that the misclassification was a data
entry error.




DOL-OIG Report No. 05-01-004-03-386                                                               5
Indianapolis PIC Welfare-to-Work Competitive Grant


                               IPIC’s misclassification overstated their accomplishments in the
 Primary Eligible              70 percent category of participants served, while understating
 statistics and                the results in the 30 percent category. The improper
 expenditures overstated       classification of costs caused the QFSR expenditure for each
                               category to be misstated by $3,858.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training direct IPIC to:

        1)      adjust the participant database to reflect the participant’s Other Eligible
                (30%) status; and
        2)      transfer $3,858 from the 70 percent to the 30 percent expenditure accounts.

Grantee Response:

IPIC officials concur that the misclassified participant should have been classified as a 30
percent participant. The $3,858 will be transferred to the proper cost category.

Auditor’s Conclusion:

We concur with this planned action. However, IPIC must also adjust the participant
database before we can resolve this finding.


                              2. Misclassified Participant Costs

Our financial testing of IPIC’s contractors’ costs disclosed two participants whose program
costs were not properly classified.

                                In reviewing a claim submitted by Crooked Creek Multi-
 Primary Eligibles              Service Center, we noted that WtW costs for two participants,
 expenditures overstated        properly classified by IPIC as Long-term Welfare Dependent
                                (30%), were inaccurately assigned to Hard-to-Employ (70%)
                                expenditure accounts.

This oversight by IPIC resulted in the QFSR expenditures being misstated by $3,687 in the
70 percent and 30 percent expenditure accounts.




DOL-OIG Report No. 05-01-004-03-386                                                            6
Indianapolis PIC Welfare-to-Work Competitive Grant


Recommendation:

We recommend that the Assistant Secretary for Employment and Training direct IPIC to
transfer $3,687 from the 70 percent to the 30 percent expenditure accounts.

Grantee Response:

IPIC officials concur that the misclassified participant should have been classified as 30
percent. IPIC will transfer the $3,687 to the proper cost category.

Auditor’s Conclusion:

We concur with this planned action and resolve this finding. However, our recommendation
cannot be closed until the ETA verifies that IPIC has fully implemented the required
corrective actions.


                                 3. Misallocated Expenditures

IPIC does not allocate WtW administrative and program expenditures to the 70 percent and
to the 30 percent categories according to its cost allocation plan. As a result, the
expenditures for Required Beneficiaries (70% Minimum), per line 5a of the Quarterly
Financial Status Reports (QFSR), and Other Eligibles (30% Maximum), per line 5b, are
misstated.

        20 CFR 645.211 states in part:

                 An operating entity . . . may spend not more than 30 percent of the WtW
                funds allotted to or awarded to the operating entity to assist individuals who
                meet the “other eligibles” eligibility requirements. . . .

All WtW expenditures, including expenditures that are not directly allocable, must be
allocated to the 70 percent and to the 30 percent categories in some reasonable and
consistent manner.

IPIC’s cost allocation plan for the WtW program states that they will allocate administrative
and program expenditures incurred by IPIC to the 70 percent and 30 percent categories
based on the percentage of 70 percent and 30 percent program expenditures claimed by the
contractors each month. Instead, IPIC merely allocated these expenditures based on the



DOL-OIG Report No. 05-01-004-03-386                                                          7
Indianapolis PIC Welfare-to-Work Competitive Grant


70 /30 percent ratio and included them with the contractor costs on lines 5a and 5b of the
QFSR.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training direct IPIC to
follow its cost allocation plan to allocate expenditures to the 70 percent and 30 percent
categories. IPIC should recalculate the 70 percent and 30 percent allocations of IPIC
administrative and program expenditures for each quarter, since inception of the grant, based
on the percentage of 70 percent and 30 percent contractor expenditures reported by the
contractors each month. The sum of these quarterly calculations for IPIC and contractor
expenditures in the 70 percent and 30 percent categories should be reported on lines 5a and
5b of future QFSRs.

Grantee Response:

IPIC officials agreed that IPIC is not following its cost allocation plan for allocating
administrative and program costs. IPIC stated:

        If IPIC were to allocate both administrative and program costs based on the
        numbers of 70% and 30% participants served, the resulting allocation would be
        charged almost entirely to 70%, since IPIC serves very few 30% clients. Such an
        allocation would almost certainly be questioned by auditors and/or monitors as to its
        reasonableness. . . .

IPIC concluded that its methodology is conservative, reasonable, and the most fair and
equitable method possible.

Auditor’s Conclusion:

We do not agree with IPIC officials. IPIC should follow their cost allocation plan regardless
of the resulting ratio of costs. In addition, the OMB Circular A-122, Cost Principles for
Non-Profit Organizations, requires that for grantee costs to be allowable, they must be
allocated to the correct cost category. Paragraph A.2 states, in part:

        To be allowable under an award, cost must meet the following general criteria:

        a.      Be reasonable for the performance of the award and be allocable thereto
                under these principles.



DOL-OIG Report No. 05-01-004-03-386                                                          8
Indianapolis PIC Welfare-to-Work Competitive Grant


        b.      Conform to any limitations or exclusions set forth in these principles in the
                award as to types or amount of cost items.

Further, Paragraph 4.a states, in part:

        A cost is allocable to a particular cost objective, such as a grant, contract, project,
        service, or other activity, in accordance with the relative benefits received.

Therefore, this finding will remain unresolved until IPIC agrees to apply its cost allocation
plan to the expenditures.


                                 4. Unsupported Claimed Cost

We selected a judgmental sample of 24 administrative and program costs transactions. As a
result of this testing, we noted that one invoice did not have supporting documentation.

                                 One of IPIC’s contractors, The Indiana Plan for Equal
 Unsupported expenditure         Employment, Inc., submitted a claim itemizing the expenses of
 resulted in questioned          a conference. The claim was for a conference in Dallas which
 cost of $1,331                  the contractor indicated was attended from
                                 November 11-18, 1999.

Although no receipts accompanied the claim, the contractor’s claim was paid.
29 CFR 95.21 Standards for financial management systems, states in part:

        . . . (b) Recipients’ financial management systems shall provide for the following:

                . . . (7) Accounting records including cost accounting records that are
                supported by source documentation.

This oversight by IPIC resulted in $1,331 of unsupported expenditures. The exact
breakdown of this IPIC administrative expenditure into the 70 percent and 30 percent
categories cannot be determined until the calculation recommended in Finding Number 3
above is completed by IPIC.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training direct IPIC to
obtain the necessary documentation in support of this claim or disallow the $1,331.


DOL-OIG Report No. 05-01-004-03-386                                                               9
Indianapolis PIC Welfare-to-Work Competitive Grant


Grantee Response:

IPIC officials stated they will seek adequate documentation or disallow this expense.

Auditor’s Conclusion:

We concur with this planned action and resolve this finding. However, our recommendation
cannot be closed until the ETA verifies that IPIC has fully implemented the required
corrective actions.


                                         5. Indirect Costs Overstated

IPIC used the wrong indirect cost rates to calculate indirect costs.

                       The initial grant document, dated June 30, 1998, provided for an Indirect
 Indirect costs        Cost Rate ceiling of 11 percent. The grant document was modified on
 overstated by         November 28, 2000, to limit the ceiling to 7 percent for the entire grant
 $44,732               period. However, on June 5, 2001, IPIC signed a negotiated Indirect
                       Cost Rate Agreement with DOL, its cognizant agency. As a result, the
                       applicable rates for the grant period, are as follows:

       Rate Type                Period          Agreement Rate   Ceiling in Grant   Applicable Rate

          Final         7/1/98 - 6/30/99            7.47%               7.00%           7.00%

          Final         7/1/99 - 6/30/00            6.00%               7.00%           6.00%

       Provisional2     7/1/00 - 6/30/02            6.00%               7.00%           6.00%


Nevertheless, IPIC used indirect cost rates for these periods based on actual indirect costs
incurred. We computed the applicable rates and compared the indirect costs with the
amounts claimed to show the amount overstated, as follows:




   2
       Subject to final rate.


DOL-OIG Report No. 05-01-004-03-386                                                                   10
Indianapolis PIC Welfare-to-Work Competitive Grant



                                                     Applicable    Costs, Per     Adjustment
      Base          Rate Used      Claimed Costs       Rate         Audit          Required

    6/30/99

    $238,297          9.49%           $22,621          7.00%        $16,681             $5,940

    6/30/00

   $1,230,215         6.57%           $80,859          6.00%        $73,813             $7,046

    12/31/00

    $450,549         13.05%           $58,779          6.00%        $27,033            $31,746

      Total                                                                            $44,732


Recommendation:

We recommend that the Assistant Secretary for Employment and Training direct IPIC to
adjust its overstated indirect costs by $44,732 to reflect the appropriate rates.

Grantee Response:

IPIC officials disagree with OIG’s assertion that IPIC used the wrong indirect cost rate to
calculate indirect costs and overstated indirect costs by $44,732. IPIC stated:

        The sole purpose for including this percentage is to present the average percent of
        indirect costs that are projected to be charged to its programs in total, to provide a
        test of reasonableness to our cognizant agency, i.e. DOL. The rate was never
        intended as a cap for any given program. (See Appendix A)

Auditor’s Conclusion:

We do not agree with IPIC officials. Our calculation of $12,986 overstated indirect costs for
the periods ending June 30, 1999 and June 30, 2000, is based on the final DOL approved
rates. However, the grant has a ceiling of 7 percent, which restricts the application of
indirect costs for the period ending June 30, 1999. For the period ending
December 31, 2000, our calculation of $31,746 overstated indirect costs is based on the
provisional rate of 6 percent. We accept that this rate may change when final costs are
submitted and the indirect cost rate is finalized. However, indirect costs would be limited to
the 7 percent ceiling in the grant. The calculation of overstated indirect costs for the




DOL-OIG Report No. 05-01-004-03-386                                                              11
Indianapolis PIC Welfare-to-Work Competitive Grant


6 months ending December 31, 2000, will be considered by the grant officer once a final
approved indirect cost rate has been negotiated. Our finding remains unchanged.




DOL-OIG Report No. 05-01-004-03-386                                                       12
Indianapolis PIC Welfare-to-Work Competitive Grant


                                                     Exhibit A




DOL-OIG Report No. 05-01-004-03-386                         13
Indianapolis PIC Welfare-to-Work Competitive Grant


                                                              Appendix A




                    Indianapolis Private Industry Council
                                   Response to Draft Report




DOL-OIG Report No. 05-01-004-03-386                                   14
Indianapolis PIC Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-01-004-03-386                  15
Indianapolis PIC Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-01-004-03-386                  16
Indianapolis PIC Welfare-to-Work Competitive Grant




                   understand why there may have been some confusion concerning
                   our approach. IPIC is in the process of striking the
                   provisional rate from our cost allocation methodology for the
                   current year. While the provisional rate cannot be
                   "withdrawn" from past fiscal years, the same interpretation
                   may be applied.

                   IPIC uses a DOL-approved methodology to allocate, on a
                   monthly basis, its indirect administrative costs (IACs) and
                   indirect program costs (IPCs). IACs are allocated to grants
                   based on percentages of total direct costs charged to each
                   grant within the given month. IPCs are allocated based on
                   the number of participants within each program as of the end
                   of the given month.

                   When IPIC has applied for an indirect cost rate, we have
                   included a detailed narrative describing the specific steps
                   taken to allocate IACs and IPCs. After the narrative, IPIC
                   estimates both indirect and direct costs for the upcoming
                   year. The indirect costs are then divided by the direct
                   costs, resulting in a percentage. The sole purpose for
                   including this percentage is to present the average percent
                   of indirect costs that are projected to be charged to its
                   programs in total, to provide a "test of reasonableness" to
                   our cognizant agency, i.e. DOL.

                   The rate was never intended as a "cap" for any given program.
                   Using it for this purpose would virtually guarantee that the
                   percentage could never be recovered in total. Using the OIG
                   auditors' methodology, the indirect costs to be charged to
                   any program within any given month could never be more than
                   6% of the direct costs, regardless of the direct
                   administrative costs or number of participants within each
                   program. Any program in which the correct amount of
                   allocable costs would be higher than 6% would simply have to
                   be absorbed by a non-federal funding source. Any program in
                   which the correct amount of allocable costs would be less
                   than 6% would receive only the amount due to it. Such a
                   program could not be allowed to recoup any additional
                   indirect costs in order to compensate for a program barred


DOL-OIG Report No. 05-01-004-03-386                                                17
Indianapolis PIC Welfare-to-Work Competitive Grant


                   from recovering indirect costs in excess of 6%. As a result,
                   using the OIG's methodology, it would be virtually impossible
                   for IPIC to ever fully recover 6% of its direct costs via the
                   allocation process. This is not, and has never been, the
                   intention of the indirect cost methodology.
                   Given IPIC's methodology, which the OIG auditors have not
                   deemed inappropriate, it is apparent that the IACs and IPCs
                   to be allocated among IPIC's various programs in any given
                   month are "at the mercy" of the total administrative costs
                   incurred by IPIC within each program, and the number of
                   participants in each program at the end of the given month.
                   Constraining each and every program within the allocation
                   process to 6% is not correct, it is not fair, and it is non-
                   compliant with our DOL-approved methodology.

                   In order to eliminate confusion now and in the future, IPIC
                   has asked DOL to remove the provisional rate of 6% from its
                   indirect cost allocation proposal. IPIC anticipates that,
                   this request will be approved. Upon such approval, the OIG
                   report cite for the time period ending 12/31/00, in the
                   amount of $31,746, will then become moot. Given that the
                   indirect cost allocation methodology for the time periods
                   ended 6/30/99 and 6/30/00 is essentially the same as for the
                   period ending 12/31/00, we ask for a determination that the
                   overriding criterion for IPIC indirect cost allocation
                   procedure be the approved methodology, noting that the
                   resulting percentage is merely provided as a test of
                   reasonableness based on projected direct and indirect
                   expenses.

                   In summary, IPIC's streamlined method of allocating indirect
                   costs is in full compliance with procedures as prescribed by
                   DOL, and repeated approvals of our applications by that
                   agency stand in support of our statement.




DOL-OIG Report No. 05-01-004-03-386                                                18
